 ......    .      .    ..........   .....             ..
                                            - --. -- -.              .    ..   . . ..   .   ,   . . .     . ..-          , .   .

DOEF 1325,8
(08.93)
United States Government                                                                                Department of Energy


memorandum
          DATE:
                       August 13, 2007                     1                        Audit Report Number: OAS-L-07-21
    REPLY TO
    ATTN OF:           IG-32 (A06PR047)
    SUBJECT:           Audit of Executive Compensation at Selected National Nuclear Security Administration
                       Sites
           TO:         Director, Policy and Internal Controls Management, NA-66


                       INTRODUCTION AND OBJECTIVE

                       As part of a Department of Energy-wide audit of executive compensation, we
                       reviewed fourN•
                                     Lti        nai-.AL
                                                    4      ...
                                                            :..   ,._•i Amiinistration (NiNSA)SsitCe.      Speuiiiu-~l
                      we reviewed executive cormpeisation costs incurred and claimed for Fiscal Years
                      2003, 2004, and 2005 at Los Alamos National Laboratory (LANL), Lawrence
                      Livermore National Laboratory (LLNL), Sandia National Laboratories, and the Y-12
                      National Security Complex.

                      The amount of executive compensation that can be reimbursed to Department of
                      Energy (Department) contractors is limited by legislation, regulations, and contract
                      terms. For example, reimbursable compensation is limited to the annual cap
                      determined by the Administrator, Office of Federal Procurement Policy (OFPP). In
                      addition, Department of Energy Acquisition Regulations, Federal Acquisition
                      Regulations, Department policies and guidance, as well as contract provisions
                      establish limitations and guidelines for executive compensation. Generally, executive
                      compensation includes salaries, bonuses, incentive compensation, pension
                      contributions, health benefits, and other fringe benefits.

                      The objective of our audit was to determine whether executive compensation
                      reimbursed to contractors was allowable, consistent with contract terms, and
                      conformed with applicable Federal requirements and guidance.

                      CONCLUSIONS AND OBSERVATIONS

                      For the four NNSA sites we reviewed, we found that executive compensation
                      reimbursed to contractors did not exceed the annual cap determined by the
                      Administrator, OFPP, and the contractors complied with applicable provisions of
                      procurement regulations, Department policies and guidance, and their contracts.

                      During the period covered by our audit, we observed that the Department reimbursed
                      the University of California, the contractor for LANL, LLNL, and Office of Science's
                      Lawrence Berkeley National Laboratory, for the cost of operating the University's
 Office of Laboratory Management (LMO), which oversees the laboratories. Although
 within applicable OFPP caps and consistent with Department policies, procedures, and
 contract terms, in some instances, LMO executives were compensated at rates and
 received increases that were higher than other offices of the University. Even though
 all LMO costs were charged to Department contracts, the Department was not
 involved in determining executive compensation levels and increases for LMO
 executives. We suggest that, as a condition for future reimbursement, the Department
 require that contracting officers review and approve the reasonableness of
 compensation levels and annual increases for LMO executives.

 SCOPE AND METHODOLOGY

The Department-wide audit was conducted from July 2006 to July 2007 at the Office
of Management, Department support offices and site offices, and 13 contractor sites.
NNSA sites included in the audit were: Los Alamos National Laboratory, in Los
Alamos, New Mexico; Lawrence Livermore National Laboratory in Livermore,
California; Sandia National Laboratories in Albuquerque, New Mexico and
Livermore, California; and, the Y-12 National Security Complex in Oak Ridge,
Tennessee. The scope of the Department-wide audit covered executive compensation
costs incurred and claimed for Fiscal Years 2003, 2004, and 2005 and included the
-",   .   ... -..
               --.   F-..,
                       Vf    uuLt200 executives   inc•lud~ig aci'I1y L'k
                                                                      ';;.Cors, deputy
directj.;, key persoLnel, and other senior management employees. Compensation
included salaries, bonuses, incentive compensation, pension contributions, health
benefits, other fringe benefits, travel and relocation reimbursements, and any other
payments made to the executive or on behalf of the executive.

To accomplish the audit objective, we identified executives and their compensation;
verified compensation to accounting records and supporting documentation;
                                                                             and,
tested compliance with legislation, regulations, Department policies and guidance, and
contracts.

We conducted the audit in accordance with generally accepted Government auditing
standards for performance audits and included tests of internal controls and
compliance with laws and regulations to the extent necessary to satisfy the audit
objective. Because our review was limited, it would not necessarily have disclosed all
internal control deficiencies that may have existed at the time of our audit. Also, we
considered the.establishment of performance measures in accordance with the
Government PerformanceandResults Act of1993, as they related to the audit
objective, and found that the Department had not established performance measures
specifically addressing executive compensation. We relied on computer-processed
data to accomplish the audit objective. When appropriate, we performed limited
                                                                                   test
work of data reliability during our audit and determined that we could rely on the
computer-processed data.




                                   2
 .1
W0r   ,a   i1   v   ,* i,    LU
                              V-   &-A       * .     *       ..---   ~UD   j .L.   .I   .   _   __   ___   -   -------   _   ---
                                                                                                                             _-&-_&   -%u




                            We appreciate the cooperation of your staff during our review. Because no formal
                            recommendations are being made in this report, a formal response is not required.




                                                                      Sedrick G. Pieper, Director
                                                                     Energy, Science and Environmental
                                                                       Audits Division
                                                                     Office of Inspector General

                            cc: Director, Office of Management
                                Team Leader, Audit Liaison Team, CF-1.2
                                Audit Liaison, MA-70




                                                            3
